Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Willie Addison, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 7/21/2021 deponent caused to be served 1 copy(s) of the within
Motion for Leave to Proceed in Forma Pauperis
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

By Regular 1st Class Mail

Elizabeth Prelogar (Acting)
Solicitor General
of the United States
Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5616
Washington D.C. 20530
202-514-2000

U.S. Attorney's Office
For The Southern
Disttrict of New York
Attorneys for Respondent
1 St. Andrew's Plaza
New York, NY 10007
Phone: 212-637-2200

Ibrahim Akasha Abdalla
Reg. #75953-054
Federal Correctional Institution
Oakdale I
P.O. Box 5000
Oakdale, Louisiana 71463

Sworn to me this
Wednesday, July 21, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Ibrahim Akasha Abdalla v. USA
Docket/Case No: 20-295
Index:

